<html>
<title> - ASSESSING THE NORTH KOREA THREAT AND U.S. POLICY: STRATEGIC PATIENCE OR EFFECTIVE DETERRENCE?</title>
<body><pre>[Senate Hearing 114-817]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 114-817

ASSESSING THE NORTH KOREA THREAT AND U.S. POLICY: STRATEGIC PATIENCE OR 
                         EFFECTIVE DETERRENCE?

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON EAST ASIA, THE PACIFIC, AND
                   INTERNATIONAL CYBERSECURITY POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-992 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

          SUBCOMMITTEE ON EAST ASIA, THE PACIFIC, AND        
               INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        

MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               BARBARA BOXER, California
JOHNNY ISAKSON, Georgia              CHRISTOPHER A. COONS, Delaware
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Cory Gardner, U.S. Senator From Colorado....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     3
Dr. Victor Cha, Senior Adviser and Korea Chair, Center for 
  Strategic and International Studies, Washington, DC............     4
    Prepared Statement...........................................     6
Jay P. Lefkowitz, P.C., Partner, Kirkland & Ellis LLP, New York, 
  NY.............................................................     9
    Prepared Statement...........................................    11
Ambassador Robert L. Gallucci, Director, John W. Kluge Center at 
  the
  Library of Congress, Washington, DC............................    14
    Prepared Statement...........................................    17

                                 (iii)

  

 
ASSESSING THE NORTH KOREA THREAT AND U.S. POLICY: STRATEGIC PATIENCE OR 
                         EFFECTIVE DETERRENCE?

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2015

                           U.S. Senate,    
Subcommittee on East Asia, The Pacific, and
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner 
(chairman of the subcommittee) presiding.
    Present: Senators Gardner and Cardin.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to the fourth hearing for the Senate 
Foreign Relations Subcommittee on East Asia, The Pacific, and 
International Cybersecurity Policy in the 114th Congress.
    Thanks again to Senator Cardin for your work and 
cooperation in holding this important hearing today.
    This hearing is intended to address what in many ways has 
been a forgotten threat, the threat of North Korea. While our 
Nation's attention is rightly focused on the Middle East, the 
North Korean threat has grown exponentially, while there seems 
to be a falling asleep, so to speak, at the switch when it 
comes to North Korea.
    According to experts, North Korea may already have as many 
as 20 nuclear warheads and may have as many as 100 within the 
next 5 years. The regime has already tested nuclear weapons on 
three separate occasions in 2006, 2009, and 2013, in violation 
of multiple U.N. Security Council resolutions.
    According to the Director of National Intelligence's 2015 
Worldwide Threat Assessment, ``North Korea's nuclear weapons 
and missile programs pose a serious threat to the United States 
and to the security environment in East Asia.''
    In April of this year, ADM Bill Gortney, the Commander of 
North American Aerospace Command, or NORAD, said that North 
Korea has developed the ability to launch a nuclear payload on 
its very own KN-08 intercontinental ballistic missile, that is 
capable of reaching the United States. As Admiral Gortney 
stated, ``Pyongyang has the ability to put a nuclear weapon on 
a KN-08 and shoot it at the homeland.''
    Besides the conventional military threats, North Korean 
cyber capabilities are growing, as evidenced by North Korea's 
attack on South Korean financial and communication systems in 
March 2013 and the Sony hack of earlier this year.
    Earlier this month, the Center for International and 
Strategic Studies, led by Dr. Victor Cha who is here with us 
today, produced a great study that described North Korea's 
dangerous new cyber capabilities. The report stated: North 
Korea is emerging as a significant actor in cyberspace with 
both its military and clandestine organizations gaining the 
ability to conduct cyber operations.''
    North Korea's regime is also responsible for horrific human 
rights abuses. North Korea maintains a vast network of 
political prison camps, where as many as 200,000 men, women, 
and children are confined to atrocious living conditions and 
are tortured, maimed, and killed.
    The landmark 2014 United Nations Commission of Inquiry on 
Human Rights in North Korea found--and I quote--``systematic, 
widespread and gross human rights violations that in the 
commission's view entailed crimes against humanity.''
    Yet efforts to counter these destabilizing North Korean 
policies and the imminent threat the Kim Jong-un regime poses 
to the world have yet to be completely dealt with.
    The policy of strategic patience in my view has been a 
strategic failure. This past August, I traveled to the region 
and met with top leaders in Japan and South Korea, including 
President Park who will be visiting Washington next week. In 
these meetings, I heard a tremendous amount of concern 
regarding the growing North Korea threat and the direction of 
United States policy.
    So if this strategic policy will not change behavior, then 
I believe Congress needs to change the behavior. Yesterday I 
introduced a bill with several of my colleagues on this 
committee called the North Korea Sanctions and Policy 
Enhancement Act of 2015, which seeks to take decisive new 
action to counter the North Korean threat. This legislation 
corrects our policy and mandates broad new sanctions against 
individuals involved in North Korea's nuclear program and 
proliferation activities, as well as against officials involved 
in the regime's continued human rights abuses and destabilizing 
cyber activities. It would also codify two Executive orders 
released in 2015 authorizing sanctions against entities 
undermining U.S. national and economic security in cyberspace.
    It is time to immediately reverse course and begin applying 
more pressure to the North Korean regime through additional 
financial sanctions, increased military engagement with our 
allies in the region, and more assertive diplomacy with China, 
which wields significant control over the fate of the regime.
    And we must remember that more than 20 years ago, North 
Korea already pledged to dismantle its nuclear program. Yet, we 
now see a regime that has no respect for international 
agreements or international norms.
    The United States should never engage in negotiations with 
Pyongyang without imposing strict preconditions that North 
Korea take immediate steps to halt its nuclear program, cease 
all military provocations, and make credible steps to 
respecting the human rights of its own people.
    If the United States does not pursue increased actions 
against North Korea now, we could face much greater and 
eventually more consequential challenges in the future. Now is 
the time to enact a comprehensive strategy to quell North 
Korea's aggression and give our allies in the region a reason 
to trust us and our enemies a reason to fear us.
    With that, Senator Cardin, I appreciate you being here 
today and I turn to you for your comments.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman, and thank 
you for convening this hearing. I think it is very important 
that we have this discussion in regards to North Korea.
    When one visits the Republic of Korea, land in Seoul, and 
take the very short trip up to the demilitarized zone, you 
recognize the security challenges on the Korean Peninsula for 
our ally and friend, the Republic of Korea.
    But the issues go far beyond that, the impact that North 
Korea is having on the security of that region. We know that 
they are reaching the capacity for a functional nuclear weapon. 
They have enough fissile material now for nuclear bombs. We 
know that. We know that they are testing, and we know that they 
have not at all adhered to any of its international 
understandings or commitments or statements that they have 
made.
    And then as you pointed out, they are aggressive in the 
cyber area. We saw what happened to Sony.
    And you quoted the U.N. Commission on Inquiry in 2014. Let 
me just quote one more thing from their finding. They said 
there is no country in the world that is equal to the extent of 
human rights abuses as North Korea. So they are number one in 
their brutal treatment of their own citizens. It includes 
large-scale executions, murders, enslavement, torture, 
imprisonment, rape, forced abortions, and other sexual 
violence. It operates a series of secretive prison camps where 
perceived opponents of the government are sent to face torture 
and abuse, starvation, enforced labor. Fear of collective 
punishment is used to silence dissent. There is no independent 
media, functioning civil societies, or religious freedom.
    So this is a country where we have very, very serious 
challenges on all fronts, on the security front, on its nuclear 
proliferation, on its human rights, on its interference, so 
many areas that call upon our attention. As we look at the 
rebalance to Asia, we must look at our policies toward North 
Korea.
    So I am particularly pleased that this hearing is taking 
place.
    Our goals for North Korea are pretty simple. We want to 
stop proliferation. We wanted a denuclearized peninsula. It has 
been our stated purpose. We want to have regional security, and 
we certainly want the people of North Korea and the entire 
region to have basic human rights and that their opportunities 
are respected by their governments.
    It is particularly challenging today because, quite 
frankly, the regime in North Korea seems to be getting a little 
bit stronger. I think we have to acknowledge that the regime 
has consolidated powers certainly by fear and certainly by 
executions, but they have done that. And in recent months, 
there have at least been some reports that their economy is 
performing a little bit better. That is not saying very much 
considering the state of their economy is one of the worst in 
the world. But it does mean that perhaps we have to look at 
more effective ways to accomplish our objectives than we have 
in the past. And I understand, Mr. Chairman, the bill that you 
have filed, and I look forward to reviewing that with you. But 
I do think we need to take a look at what we can do to be more 
effective.
    And in any policy, we have to work very closely with our 
close ally, the Republic of Korea. President Park, as I 
understand, will be in town next week. It is an opportunity for 
us to reinforce our mutual commitment to the security of the 
Korean Peninsula and our goal to denuclearize the Korean 
Peninsula.
    But I would suggest that we have to work beyond just the 
Republic of Korea. We have got to work in Japan. We have got to 
work with China, and we have to work effectively to prevent 
North Korea's ambitions to expand their nuclear threat and 
their threat to the security of the region.
    With that, I look forward to our witnesses and our 
discussion.
    Senator Gardner. Thank you, Senator Cardin.
    And thank you again to the distinguished panel here today. 
Our first witness is Dr. Victor Cha, who serves as a senior 
adviser and Korea chair at the Center for International and 
Strategic Studies. From 2004 to 2007, Dr. Cha served as 
Director for Asian Affairs at the White House on the National 
Security Council responsible for policies regarding the Korean 
Peninsula. Dr. Cha was also the deputy head of delegation for 
the United States at the six-party talks in Beijing and 
received two outstanding service commendations during his 
tenure at the NSC.
    Welcome, Dr. Cha. Please, we will proceed with your 
testimony.

 STATEMENT OF DR. VICTOR CHA, SENIOR ADVISER AND KOREA CHAIR, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Cha. Thank you, Mr. Chairman, Senator Gardner, and 
Senator Cardin. It is a pleasure to be here with you.
    I am going to make three sets of comments about the problem 
of North Korea today: one, about their strategy of 
provocations; two, about their leadership; and then three, the 
road ahead.
    As we all know, there have been reports this month that the 
North Koreans might conduct some sort of provocation. Experts 
believe the most likely action would be some sort of launching 
of a satellite, which would be in violation of standing U.N. 
Security Council resolutions.
    There are two systems of concern with regard to their 
launches for the United States: the untested KN-08 is an 
intermediate range ballistic missile, and the flight-tested 
Unha-3, also known as the Taepodong-3 missile. The KN-08 could 
potentially make North Korea's nuclear force more survivable 
and less deterrable. Its estimated range would put it within 
the reach of Alaska and areas within reach of Guam as well.
    North Korea's cyber operations cannot be ruled out either. 
CSIS just completed a study, as the Senator mentioned, that 
warns that North Korea is developing its cyber capabilities in 
tandem with its other asymmetric threats and has embedded these 
capabilities in party and military institutions responsible or 
events like the Cheonan sinking in 2010. This potentially means 
that cyber operations could become more than just criminal acts 
but could be integrated in the future with a military strategy 
designed to disrupt U.S. systems.
    So in this regard, I applaud the Senate bill which has a 
focus on sanctioning the cyber activity.
    With regard to a nuclear test, commercial satellite imagery 
at least does not suggest a nuclear test is in the offing, but 
again, with North Korea, you can never be sure what is going to 
happen.
    I think the regime's strategy is to become recognized as a 
full-fledged nuclear weapons state with the capacity to reach 
the United States homeland with ballistic missiles and to deter 
the United States on the Korean Peninsula and in Asia. The 
sanctions under the Obama administration have not prevented the 
North from making progress in achieving this goal if we take 
seriously the recent spate of statements attesting to the 
advancement in their weapons programs. An appendix in my 
testimony lists all the statements that they have made 
recently.
    The North is not interested in diplomatic give and take, 
but to win through coercive bargaining. That is, their strategy 
is to disrupt the peaceful status quo because they know we care 
about it more than they do, and then negotiate a dialing down 
of the crisis in return for benefits, some of which will then 
be reinvested into their weapons development.
    The leadership is now in its 4th year, but there continues 
to emerge stories about purges of high-level officials. Some 70 
high-level officials have been purged. The leadership is 
hypersensitive to external criticism of the regime's 
legitimacy, as we have seen in their responses to things like 
the movie, ``The Interview,'' the U.N. Commission of Inquiry 
report, and most recently the DMZ loudspeaker broadcasts. To me 
this does not appear to be the signs of a well-ensconced and 
secure leadership.
    In terms of the way forward, North Korea remains the 
greatest proliferation threat in the world today, and yet there 
are no clear and easy solutions. The issue has not been a front 
burner one for this administration which has practiced a policy 
of strategic patience. In the meantime, Pyongyang is growing 
its capabilities every day and slowly, but surely, seeking to 
alter the strategic balance on the peninsula.
    A battery of financial sanctions on individuals involved in 
proliferation, cyber operations, and human rights abuses must 
be applied, the authorities of which were established in many 
of these Presidential EO's, but have not yet been fully 
implemented.
    The North Korean threat provides proximate cause for a 
tightening of trilateral political and defense cooperation 
between the United States, Japan, and South Korea, which has 
weakened recently. Ally trilateralism is not just important for 
deterrence against a nuclear North Korea but for conveying to 
China the long-term strategic costs of the support of the 
regime.
    Finally, any future denuclearization strategy for North 
Korea must not ignore the human rights condition in the 
country. This is because the human rights issue hits at the 
very heart of the regime's legitimacy.
    In the United States, the champions of this movement number 
no more than 172 despite a refugee resettlement program that 
was signed into action 11 years ago. According to research by 
the Bush Institute, these individuals are doing well but they 
lack support networks. Support of these individuals is the most 
direct way to improve the human condition in North Korea and to 
spread word of the regime's lies. In the end, the North Korean 
state is built on a myth of utopian leadership. The more that 
myth is broken, the more the regime will be forced to change.
    Thank you very much.
    [The prepared statement of Dr. Cha follows:]

                Prepared Statement of Dr. Victor D. Cha

    Senator Gardner, Senator Cardin (ranking Democrat) and members of 
the committee, it is a distinct honor to appear before this committee 
to discuss the challenges on the Korean Peninsula.
    I have three sets of comments to make today about the problem of 
North Korea. The first has to do with discerning their strategy of 
provocations; the second relates to the stability of the leadership; 
and the third relates to the path forward on both weapons and human 
rights, and what we might do to contend with this very difficult 
problem.
    A caveat. Our knowledge of North Korea leaves much to be desired. 
It is indeed one of the hardest intelligence targets in the world given 
the regime's opacity. I believe the Chinese have lost a great deal of 
insight after the execution of Jang Song-thaek in December 2013. There 
are far fewer NGOs operating in the country compared to the past. And 
overhead satellite imagery provides us with a bird's eye view only of 
happenings on the ground. Thus, our assessments are often based on 
assumptions, judgments, hunches, and even guesses with the modest data 
that is available.
    There have been media reports that North Korea might conduct some 
form of provocation to celebrate the 70th anniversary of the Workers' 
Party of Korea on October 10 this year. Experts believe that the most 
likely action will be the launching of a satellite. While such a launch 
would be ostensibly for civilian purposes, given North Korea's special 
history of missile activities, a launch would be a violation of U.N. 
Security Council Resolutions 1718, 1874, 2087 and 2094.
    The systems that are of particular concern are the ones that could 
reach the United States. There are two systems of note, the untested 
KN-08 IRBM, also known as Hwasong-13, and the flight-tested Unha-3, 
also called Taepodong-3.
    The untested road-mobile KN-08 could potentially make North Korea's 
nuclear force more survivable and less deterrable. Its estimated range 
of between 3,100-3,700 miles will allow it to hit Alaska, and places it 
well within the reach of Guam. Although only mockups of the KN-08 have 
been paraded twice--once in 2012 and once in 2013--it was enough to 
garner the attention of NORAD commander Admiral William Gortney's, who 
voiced his concerns earlier this April with his acknowledgement of 
North Korea's capability to successfully finish and deploy this new 
missile system.
    The Unha-3, as many of you may recall, was used to successfully 
launch North Korea's first satellite, the Kwangmyongsong-3 Unit 2 into 
orbit on December 2012. The three-stage missile test occurred in 
defiance of U.S. and regional objections and in clear violation of 
existing UNSCRs. The test occurred several months after North Korea had 
failed in its first attempt to put Unha-3 into orbit that April, which 
had derailed the ``Leap Day Agreement.''
    U.S. forces in Japan and Korea are already under threat from the 
North's Nodong MRBMs, which has a range of 620 miles, far enough to hit 
all of Japan. North Korea is widely believed to have around 200 
Nodongs, and potentially 100 of the untested but longer ranged Musudan 
MRBMs (2,000-2,500 miles). Last year marked the most intense North 
Korean missile tests period ever, with more than hundreds of missile, 
rocket, and artillery tests by the Kim Jong-un regime.
    North Korean cyber operations cannot be ruled out either. The hack 
of Sony in November 2014 raised concerns and questions about the extent 
of this new threat. CSIS just completed a study this month that warns 
that the North is developing its cyber capabilities in tandem with its 
other asymmetric threats, and has embedded these capabilities in party 
and military institutions responsible for events like the Cheonan naval 
ship sinking and other provocations. This potentially means that cyber 
operations could become more than just criminal acts, but could be 
integrated in the future with a military strategy designed to disrupt 
U.S. systems.
    Commercial satellite imagery does not indicate a nuclear test in 
the offing. However statements by the U.S. and South Korean governments 
suggest that there is nothing to prevent another test at the Punggye-ri 
site.\1\
                     strategy to coerce and divide
    North Korea's strategy is to become recognized as a full-fledged 
nuclear weapons state with the capacity to reach the United States 
homeland with ICBMs and to deter the U.S. on the peninsula with shorter 
range, even battlefield use, nuclear weapons. The sanctions under the 
Obama administration have not prevented the North from making progress 
in achieving this goal, if we take seriously the recent spate of 
statements attesting to advancements in their weapons (A list of those 
statements are attached in Appendix A).
    The North is not interested in diplomatic give and take, but to win 
through coercive bargaining. That is, the strategy is to disrupt the 
peaceful status quo because they know we value it more than they, and 
then negotiate a dialing down of the crisis in return for benefits, 
some of which will be reinvested in their weapons development. That 
period of time when negotiations help to calm the waters after a 
provocation are seen by some as ``successful diplomacy,'' but by others 
as mere extortion.
    The North's strategy is also to divide allies. Sometimes known as 
``divide and conquer'' Pyongyang likes to engage with one (i.e., the 
U.S.) while holding the other at arm's length (i.e., ROK). The North 
may be attempting some version of this currently as it will offer 
family reunions to the South in October while carrying out missile and 
nuclear tests directed at the U.S.
                     uncertain leadership stability
    The leadership is now in its fourth year but there continue to 
emerge stories about purges of high-level officials. Aside from the 
infamous execution of his uncle and the unknown whereabouts of his 
aunt, Kim Kyong-hui, the leader has removed about 70 officials, 
including the Defense Minister. Many of these are his own people, not 
merely those of his father's generation. Moreover, the leadership is 
hypersensitive to external criticism of the regime's legitimacy. This 
is evident not just in the histrionic response to the screening of the 
movie, ``The Interview,'' but also in the way they have reacted with 
anger at international criticisms for human rights abuses. In 
conjunction with the Bush Institute and several other NGOs, CSIS hosted 
an international conference on the 1-year anniversary of the U.N. 
Commission of Inquiry report on North Korea in February 2015 that drew 
pointed criticism and officials protests from the government in 
Pyongyang. This is unusual because we have done scores of conferences 
on the challenges of North Korea's nuclear threats in the past with no 
response from the North. This does not appear to be the signs of a 
well-ensconced and secure leadership.
                            the way forward
    North Korea remains the greatest proliferation threat in the world 
today and yet there are no clear and easy solutions. The choices are 
often made between options that are bad, and options that are worse. 
The issue has not been a front-burner one for this administration which 
has practiced a policy of ``strategic patience.'' In the meantime, 
Pyongyang is growing its capabilities every day and is slowly but 
surely seeking to alter the strategic balance on the peninsula and in 
the region.
    The United States must maintain resolute deterrence and stand ready 
to respond with overwhelming force to North Korean threats even as 
Washington seeks a peaceful, diplomatic solution. Diplomacy cannot 
wholly remove the use of force from the table if there is to be any 
urgency on China's part to work with the other parties to denuclearize 
the North.
    The international community cannot countenance further tests and/or 
provocations, as this would only exacerbate an already acute moral 
hazard problem in our policy. A battery of financial sanctions on 
individuals involved in proliferation, cyber operations, and human 
rights abuses must be applied, the authorities of which were 
established in the Presidential Executive Orders 13382, 13466, 13551, 
13570, 13619, and 13687, but these have yet to be implemented fully.
    The North Koreans also must be made to understand the ``non-
utility'' of their nuclear arsenal and that any such use would lead to 
their ultimate destruction. The one lesson of the nuclear revolution is 
that states that acquire nuclear weapons do not use them. It is an open 
question whether the regime has any understanding of the fundamentals 
of nuclear deterrence, which places an even higher premium on area 
missile defense in the region.
    The North Korean threat provides proximate cause for a tightening 
of trilateral political and defense cooperation between the United 
States, Japan and ROK, which has been weakened recently. Allied 
trilateralism is not just important for deterrence against a nuclear 
North Korea, but for conveying to China the long-term strategic costs 
of its support of the regime.
    The six-party talks need to be modified in the aftermath of the 
next North Korean provocation to other forms of multilateral 
coordination, including a five-party format involving the U.S., Japan, 
ROK, China, and Russia to include a more open discussion about the 
future of the peninsula and unification.
    Finally, any future denuclearization strategy for North Korea must 
not ignore the human rights condition in the country. The international 
mobilization on North Korean human rights lacks partisan coloring, 
remains resilient, and puts as much pressure on the regime as the 
standing UNSCR sanctions regime. This is because the movement hits at 
the very heart of the regime's legitimacy.
    In the United States, the champions of this movement number no more 
than 172 despite a refugee resettlement program that was signed into 
action 11 years ago. According to research by the Bush Institute, these 
individuals are doing well, but lack the support network that exists 
for the estimated 26,000 North Koreans that have resettled in South 
Korea, and yet they went through difficult ordeals to make this country 
their home.\2\ Support of these individuals is the most direct way to 
improve the human condition in North Korea and to spread word of the 
regime's lies. No issue has raised more of a response than the direct 
calling out of the regime for how it treats its people. In the end, the 
North Korean state is built on a myth of utopian leadership. The more 
that myth is broken, the more the regime will be forced to change.

----------------
End Notes

    \1\ Kim Eun-jung, ``N. Korea ready for atomic test, yet no imminent 
sign: Seoul's defense chief,'' Yonhap News, February 10, 2014.
    \2\ Victor Cha, ``Light Through the Darkness,'' The Bush Institute 
at George W. Bush Presidential Center, January 2015.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Gardner. Thank you, Dr. Cha.
    Our second witness is Mr. Jay Lefkowitz, who served from 
2005 to 2009 as the United States Special Envoy on Human rights 
in North Korea. From 2001 to 2003, he served in the White House 
as Deputy Assistant to President Bush for Domestic Policy and 
as General Counsel in the Office of Management and Budget.
    Earlier in his career, he served in the White House as 
Director of Cabinet Affairs and Deputy Executive Secretary to 
the Domestic Policy Council for President George H.W. Bush.
    Mr. Lefkowitz is now in the private sector serving as 
partner at Kirkland & Ellis in New York City.
    Welcome, Mr. Lefkowitz.

STATEMENT OF JAY P. LEFKOWITZ, P.C., PARTNER, KIRKLAND & ELLIS 
                       LLP, NEW YORK, NY

    Mr. Lefkowitz. Thank you, Mr. Chairman, Senator Cardin. 
Thank you very much. And it is a pleasure to share this witness 
panel with Dr. Cha and Ambassador Gallucci.
    Over the last 21 years, since President Clinton signed a 
nuclear freeze agreement with North Korea, the ironically named 
Democratic People's Republic of Korea has become a nuclear 
state. It is also widely known that North Korea proliferates 
its nuclear technology. In 2007, Israel destroyed a nuclear 
facility in Syria that had been a beneficiary of North Korean 
nuclear technology, and just a few months ago, Secretary of 
Defense Carter stated that North Korea and Iran could be 
cooperating to develop a nuclear weapon. There is no doubt, 
therefore, as the chairman and Senator Cardin pointed out, that 
North Korea now poses a grave threat to those well beyond South 
Korea, next to whose border a significant portion of North 
Korea's million-man army is permanently stationed.
    Nor can one honestly say that with North Korea, its threats 
are mere bluster. It conducted nuclear tests in 2006, 2009, and 
2013, and it has repeatedly engaged in unprovoked conventional 
acts of warfare against its neighbor to the south.
    We should not be surprised that a government that behaves 
this way mistreats its own citizens. There is no nation in the 
world with a more egregious human rights record than North 
Korea. To live in North Korea is to be subjected to total 
suppression of freedom of speech, religion, and expression of 
all sorts. And the regime operates an odious network of 
political concentration camps where people are subjected to 
systematic rape and torture.
    It is against this backdrop that the United States has 
wrestled with crafting a policy toward North Korea over the 
last two decades. And while Presidents Clinton, Bush, and Obama 
have all spoken harshly at times about North Korea's nuclear 
ambitions and human rights violations, none has been willing to 
take serious steps to effectuate a regime change for fear of 
destabilizing the region. And for good reason. Without a North 
Korean public ready and able to take control of its own 
destiny, a sudden regime collapse would create a highly 
unstable and politically intolerable situation for China, South 
Korea, and Japan, the three largest and most powerful neighbors 
in the vicinity. Thus, while none of North Korea's neighbors 
may be happy with the status quo, they may well believe that 
the status quo was a more attractive short-term option than the 
uncertain future of a sudden regime collapse.
    In lieu of a policy of rollback or of mere acquiescence in 
the status quo, successive American governments have adopted a 
policy of engagement and containment, vacillating back and 
forth between providing assistance, withdrawing assistance, 
food assistance, economic assistance, and the like. First we 
had the Agreed Framework under President Clinton. Then we had 
the six-party talks during President Bush's administration, and 
of course, the predictable result of all of this engagement has 
been a nuclear North Korea.
    Nor has this pattern changed during the Obama 
administration. In May 2009, as a welcome to the new President, 
North Korea conducted an underground nuclear test. Two years 
later when the food situation took a turn for the worse, there 
was an agreement where in return for food aid, North Korea 
agreed to stop its nuclear activity in Yongbyon. And yet, no 
sooner was the ink dry on this agreement than North Korea 
launched a missile leading to the suspension of the food 
shipments.
    So what should the United States do? Well, with a policy of 
regime change still premature, a policy focused only on 
containment is not likely to succeed given North Korea's 
increasing offensive capabilities and belligerence and the 
unwillingness of China to cut trade with the regime. Instead, 
the United States should remain open to a policy of 
constructive engagement alongside containment but with 
engagement on all issues, economic, security, and human rights, 
as we did in the waning years of the cold war with the Helsinki 
Accords and with legislation like the Jackson-Vanik amendment. 
Ultimately, though, security will only come when North Koreans 
are empowered to take destiny in their own hands.
    As we saw from the experience of the captive nations of 
Eastern Europe at the end of the cold war, the promise of 
peacefully changing the situation in North Korea does not have 
to be a pipe dream. Military deterrence is crucial, but we have 
to work assiduously to build an international coalition. And in 
that light, it would be useful to take President Park's 
comments about the long-term goal of peaceful reunification 
seriously. As she travels to Washington, DC, later this month, 
the Congress should explore not only more effective strategies 
to address North Korea's nuclear ambitions, but also what a 
strategy that focused on peaceful reunification would entail.
    [The prepared statement of Mr. Lefkowitz follows:]

                 Prepared Statement of Jay P. Lefkowitz

    Over the last 21 years, since President Clinton signed a nuclear 
freeze agreement with North Korea, (known as the Agreed Framework), the 
ironically named Democratic People's Republic of Korea has become a 
nuclear state. The consensus among experts is that North Korea now 
possesses approximately 6-8 plutonium nuclear weapons and 4-8 uranium 
nuclear weapons.\1\ And earlier this year, United States Admiral Bill 
Gortney, who is in charge of the North American Aerospace Defense 
Command (NORAD), announced that North Korea has developed the ability 
to miniaturize nuclear warheads and launch them at the U.S., though 
there is no evidence that the regime has tested the necessary missile 
yet. It is also widely known that North Korea proliferates its nuclear 
technology. In 2007, Israel destroyed a nuclear facility in Syria that 
had been the beneficiary of North Korean nuclear technology, and this 
past spring, Secretary of Defense Ashton Carter stated that North Korea 
and Iran ``could be'' cooperating to develop a nuclear weapon. There is 
no doubt, therefore, that North Korea now poses a grave threat to those 
well beyond South Korea, next to whose border a significant portion of 
North Korea's million-man army is permanently stationed.
---------------------------------------------------------------------------
    \1\ http://38north.org/wp-content/uploads/2015/02/NKNF-NK-Nuclear-
Futures-Wit-0215.pdf; Blumenthal, Dan, chapter published in ``Choosing 
to Lead: American Foreign Policy for a Disordered World.'' The John Hay 
Initiative, 2015.
---------------------------------------------------------------------------
    Nor can one honestly say that with North Korea, its threats are 
merely bluster. It conducted nuclear weapons tests in 2006, 2009, and 
2013. It has also engaged in unprovoked conventional acts of warfare 
with its neighbor to the south, sinking a South Korean warship, the 
Cheonan, in 2010, and killing 46 sailors; and then shelling the South 
Korean island of Yeonpyeong that same year, killing four South Koreans 
and injuring 19 others. In 2013, the regime was discovered to have been 
trading in weapons with Cuba, when Panama impounded a North Korean 
ship. And, of course, there was the cyber attack on Sony Pictures 
Entertainment in 2014, which, despite North Korea's protestations of 
innocence, has been attributed by the FBI to North Korea.
    We should not be surprised that a government that behaves this way 
mistreats its own citizens. And, as is by now well documented, there is 
no nation in the world with a more egregious human rights record than 
North Korea. Its citizens have no say in their government's conduct; 
and they have extremely little say in their own lives. To live in North 
Korea is to be subjected to the total suppression of freedom of speech, 
freedom of expression, and freedom of religion. The regime operates a 
network of political concentration camps, where as many as 200,000 
North Koreans are incarcerated without any due process and subjected to 
systematic rape and torture, the intentional destruction of families, 
and even executions. Access to outside information is so restricted 
that citizens must report purchases of radios and TVs, and the police 
often make inspections to ensure sets are tuned to official programming 
with draconian consequences for those who disobey the law. Possession 
of foreign books, magazines, and newspapers also is forbidden, although 
increasingly news of the outside world filters in through illegal 
radios and cell phones that are smuggled into the country and used near 
the borders.
    To be sure, there is no trust even between the nation's Supreme 
Leader and his most senior diplomats. During my tenure as Special Envoy 
for Human Rights in North Korea, I recall vividly speaking with a North 
Korean Ambassador to a major European nation who told me about his wife 
and children, who were being held hostage in North Korea during his 
tenure as Ambassador, because the regime could not trust even its 
senior officials not to defect.
    It is against this backdrop that United States officials have 
wrestled with crafting a policy toward North Korea over the last two 
decades. While Presidents Clinton, Bush, and Obama have all spoken 
harshly at times about North Korea's nuclear ambitions and human rights 
violations, none of them have been willing to take serious steps to 
effectuate a regime change for fear of seriously destabilizing the 
region. And for good reason. Without a North Korean public ready and 
able to take control of its own destiny, a sudden regime collapse would 
create a highly unstable and potentially intolerable situation for 
China, South Korea, and Japan, the three largest and most powerful 
neighbors in the immediate vicinity. Both China and Japan would be very 
concerned about North Korea's nuclear facilities falling into to the 
hands of South Korea, which, were it to reunify the peninsula 
consistent with its stated policy of reunification would suddenly 
double in size and become a nuclear power. At the same time, South 
Korea would be very concerned about the prospect of millions of poor 
and undernourished North Korean refugees suddenly streaming across the 
border and putting enormous financial demands on South Korea. In short, 
while none of North Korea's neighbors may be happy with the current 
state of affairs in North Korea, the status quo may well be more 
attractive to each of them than the uncertain future of a sudden regime 
collapse.
    In lieu of a policy of rollback or of mere acquiescence in the 
status quo, successive American governments have adopted a policy of 
engagement and containment intended, first and foremost, to prevent 
North Korea first from acquiring, and after that failed, from further 
developing, nuclear weapons. First there was President Clinton's Agreed 
Framework, which was his administration's response to North Korea's 
announcement in 1993 that it would withdraw from the Nuclear Non-
Proliferation Treaty (NPT) to which it had become a party only 8 years 
earlier. Pyongyang promised to dismantle its plutonium processing plant 
at Yongbyon in exchange for up to $4.5 billion in aid, assistance in 
building two civilian nuclear reactors, and potential entry into the 
World Bank and IMF. President Clinton declared: ``This is a good deal 
for the United States. North Korea will freeze and then dismantle its 
nuclear program. South Korea and our other allies will be better 
protected. The entire world will be safer as we slow the spread of 
nuclear weapons.''
    In reality, the Agreed Framework was flawed from the start. Like 
the recently negotiated Iran nuclear deal, it was an Executive 
agreement, rather than a treaty, and it had no real bipartisan support. 
When, predictably, the North Koreans started cheating by trying to 
develop nuclear material through another method, the Bush 
administration terminated a supply of fuel oil that was essential to 
the agreement, which prompted the North Koreans to kick out the U.S. 
inspectors and restart the nuclear plant. And as we now know, only 12 
years later Pyongyang conducted its first nuclear test.
    Next came the Bush administration's Six Party Talks, which began 
shortly after the collapse of the Agreed Framework when North Korea 
formally withdrew from the NPT. These talks followed much the same 
pattern as previous negotiations with North Korea: In exchange for 
financial assistance, Pyongyang would make promises to cease certain 
activities or allow inspections of certain facilities. Inevitably, 
North Korea would renege on such promises and engage in provocations 
intended to propel the United States to offer additional assistance in 
an effort to induce North Korea to make additional accommodations. 
Thus, by way of example, in September 2005, after 2 years of talks, 
North Korea agreed to give up its weapons in exchange for aid. A small 
amount was provided but then the same cycle restarted, with North Korea 
testing its first nuclear weapon in October 2006. The international 
community responded sharply with more talk of sanctions. The U.N. 
Security Council enacted additional sanctions although enforcement was 
questionable, especially by China. Then, in February 2007, North Korea 
promised to end its nuclear program in exchange for aid, which began to 
flow in significant amounts in 2008. Finally, during the waning months 
of the Bush administration, in response to North Korea's agreement to 
let inspectors visit certain nuclear facilities, North Korea was 
rewarded by being removed from the United States official list of state 
sponsors of terrorism. But by January 2009, as the Bush administration 
came to an end, North Korea had reneged on its 2007 agreement.
    Nor has this pattern changed during Obama administration. In May 
2009, as a welcome to the new President, North Korea conducted another 
underground nuclear test. Then, in March 2010, it raised the stakes 
regionally by sinking the South Korea warship Cheonan, which left 46 
sailors dead. But in February 2011, the food situation took a turn for 
the worse as foot and mouth disease spread throughout the north and 
once again, the regime was eager to talk about making concessions. This 
led to the agreement in February 2012 where, in return for food aid 
from the United States, North Korea agreed to stop nuclear activity at 
its main facility in Yongbyon. Yet no sooner was the ink dry on this 
agreement then North Korea launched a missile in April leading to the 
suspension of food shipments.
    By 2004, Congress had begun to recognize that the United States 
twin policies of constructive engagement with containment were yielding 
neither a constructive dialogue with Pyongyang nor effective 
containment. As a result, and taking from the history of the latter 
days of the cold war when the United States employed a policy of 
linkage in its approach to the Soviet Union, negotiating on military, 
economic, and human rights issues side by side, Congress passed the 
North Korean Human Rights Act without dissent and with key support from 
members of both parties. I was privileged to be appointed by President 
Bush as the first Special Envoy pursuant to the Act.
    In my role as Special Envoy, I tried to spotlight the regime's 
human rights abuses and in particular, assist those brave North Koreans 
who managed to escape and make their way across the border into China. 
Our administration worked closely with our friends and allies in the 
region to help accommodate increasing numbers of refugees, and on those 
occasions when China violated international law by sending captured 
North Korean refugees back into North Korea, we called them out on 
their unlawful conduct loudly and clearly. We also worked to expedite 
family reunifications for Korean families who live on opposite sides of 
the 38th parallel, and we increased our efforts, both governmental and 
in support of NGOs, to broadcast news from free nations into North 
Korea. President Bush also sought to put his personal spotlight on 
North Korea's human rights abuses by meeting very publicly with 
defectors such as Kang Chol-hwan, the author of ``Aquariums of 
Pyongyang,'' and Kim Seong Min, the founder of Free North Korea Radio.
    What we were unable to do sufficiently, however, and what the Obama 
administration has likewise failed to do, is link our focus on human 
rights issues to the broader security dialogue that we were having with 
Pyongyang. Where, during the latter years of the cold war, the United 
States regularly raised the issue of human rights in its direct 
dialogue with the Soviets (and even spoke directly to the Soviet 
Premiers about the plight of particular Jewish refuseniks), and 
Congress in 1974 passed the Jackson-Vanik law, an amendment to the 
Trade Act that impose limitations on U.S. trade with countries that 
restricted freedom of emigration and violated other human rights, the 
United States has thus far refused to adopt a similar policy of linkage 
with North Korea. This is regrettable. While changing the human rights 
situation in North Korea, though clearly a commendable goal, may not be 
an appropriate end in itself for our policy toward Pyongyang, there is 
surely a role for human rights in a multifaceted strategy toward North 
Korea. The Helsinki Accords in the 1970s demonstrated that an emphasis 
on human rights can well be a productive means toward a national 
security objective.
    Unfortunately, the Obama administration has barely paid lip service 
to the human rights situation in North Korea or to China's treatment of 
North Korean defectors. During Secretary Clinton's trip to China in 
2009 shortly after she became Secretary of State, she gingerly 
addressed the human rights issue, never once even mentioning China's 
practice of sending defectors back across the border, and spoke instead 
more generally about Tibet and Taiwan. Moreover, she was quick to point 
out that she would not let human rights issues play a serious role in 
her dialogue with China, noting that ``our pressing on those issues 
can't interfere with the global economic crisis, the global climate 
change crisis, and the security crisis.''
    At the same time, the Obama administration has repeated many of the 
same mistakes of its predecessors, vacillating between support and 
sanctions. After offering North Korea an ``outstretched hand'' in his 
first inaugural address, which Pyongyang flatly rejected (refusing even 
to continue the Six Party Talks), President Obama's approached 
gradually shifted to one that he outlined in a 2015 statement on his 
foreign policy as one of ``strategic patience.'' To be sure, his 
administration has now cut off even food aid to the regime, which given 
Pyongyang's practice of diverted such aid to its military is a welcome 
step, one wonders whether patience is really the best approach to a 
North Korea intent on growing its nuclear capabilities. Perhaps the 
Obama administration should learn a lesson from one of the missteps of 
the Bush administration, which was to lift the economic sanctions on 
Banco Delta Asia, a Macao-based bank that in 2007 the United States 
determined was holding $25 million in laundered North Korean assets. 
The effort to freeze these assets, perhaps more than any U.S. action 
before or since, got Pyongyang's attention. Yet inexplicably, without 
any progress on the nuclear talks, the U.S. lifted those sanctions in 
2007.
    Because we are on the verge of a new nuclear agreement that bears 
many hallmarks of President Clinton's Agreed Framework, I will conclude 
by observing that while our record of deterring nuclear attacks has 
been successful to date, our record of containing new nuclear regimes 
is not faring as well. At the same time, just as we have largely 
abandoned the human rights issue as a tool with which to pressure North 
Korea and build a multilateral coalition against the regime, we have 
also largely abandoned the promotion of dissent in Iran, even though 
events in recent years have demonstrated that a large percentage of the 
population is eager for reform. Indeed, the Iranian population is much 
more open to Western influences than the North Koreans. With respect to 
both countries then, a serious national security strategy should 
incorporate human rights as one of our tools.
    So what should the United States do? While a policy of regime 
change is still premature, a policy focused only on containment is not 
likely to succeed, given North Korea's increasing offensive 
capabilities and belligerence, and the unwillingness of China to cut 
trade with Pyongyang. Instead, the United States should remain open to 
a policy of constructive engagement alongside containment, but with 
engagement on all issues, security, economic, and human rights. 
Ultimately, security will only come when North Korean citizens are 
empowered to take their destiny into their own hands.
    This means the United States should support the instincts and 
desires for self-governance that we know from defectors many North 
Koreans possess, and giving nonviolent, nonmilitary tools of statecraft 
a chance. Congress should pass the North Korean Sanctions Enforcement 
Act; make available significantly more financial resources for 
independent civilian broadcasts like Free North Korea Radio; help those 
North Koreans who defect travel safely to South Korea or other safe 
havens; and promote family reunification visits (ideally on both sides 
of the DMZ), and cultural exchanges with the West. The President should 
also use the bully pulpit to speak clearly about the threat posed by 
North Korea and about China's enablement of the North Korean 
Government. And because China has greater influence over North Korea 
than any other nation, our North Korea policy must be part and parcel 
of our China policy.
    As we saw from the experience of the captive nations of Eastern 
Europe toward the end of the cold war, the promise of peacefully 
changing the situation in North Korea does not have to be a pipe dream. 
Military deterrence is crucial, and we need to work assiduously to 
build an international coalition aimed at preventing nuclear 
proliferation by North Korea. But we should also open the door to 
promoting evolution within the regime, and signaling our friendship and 
support to would-be reformers. In that light, it would be useful to 
take President Park's comments about the long-term goal of peaceful 
reunification seriously. As she travels to Washington, DC, later this 
month, the Congress should explore not only more effective strategies 
to address North Korea's nuclear ambitions, but also what a strategy 
that focused on peaceful reunification would entail.

    Senator Gardner. Thank you, Mr. Lefkowitz.
    Our third witness is Ambassador Robert Gallucci who has 
just started his tenure last month as director of the John W. 
Kluge Center at the Library of Congress. Ambassador Gallucci 
served as president of the McArthur Foundation from 2009 to 
2014. Prior to that, from 1996 to 2009, he served as dean of 
the Edmund A. Walsh School of Foreign Service at Georgetown 
University.
    Ambassador Gallucci has 21 years of distinguished public 
service, as Ambassador at Large and Special Envoy for the U.S. 
Department of State, he dealt with threats posed by the 
proliferation of ballistic missiles and weapons of mass 
destruction. He was chief U.S. negotiator during the North 
Korean nuclear crisis of 1994 and served as Assistant Secretary 
of State for Political and Military Affairs and as Deputy 
Executive Chairman of the U.N. Special Commission overseeing 
the disarmament of Iraq following the first gulf war.
    Mr. Ambassador, thank you for your service and welcome to 
today's panel.

 STATEMENT OF AMBASSADOR ROBERT L. GALLUCCI, DIRECTOR, JOHN W. 
    KLUGE CENTER AT THE LIBRARY OF CONGRESS, WASHINGTON, DC

    Ambassador Gallucci. Thank you, Mr. Chairman, Senator 
Cardin. Thank you for the opportunity to be with you today.
    I am advised I should say that my comments represent my 
views and not necessarily those of the Library of Congress or 
Georgetown University.
    It seems to me that a fair characterization of this 
administration's policy toward North Korea is one of drift. I 
know it has been characterized as strategic patience, and I 
understand that it is true that the Obama administration has 
explored and made overtures in an attempt to engage the North 
Koreans. The North Koreans, I understand, claim that they have 
sought the opportunity to talk with the United States. We, for 
our part, I understand, have seen a lack of sincerity on the 
part of the North Koreans, and we have insisted that they show 
us, give some indication of their sincerity, make a concession 
of some kind. The North, for their part, has seen, and says 
they see, from us nothing but hostility, manifest in the 
military exercises between ourselves and the Republic of Korea. 
All that said, neither side apparently has seen the necessity 
to resolve this current situation, this sort of standoff.
    The United States has been content apparently to 
demonstrate alliance cohesion and its deterrent posture by 
containing North Korea and by the application of a sanctions 
regime. The North Koreans for their part have China to limit 
the impact of that sanctions regime while they continue to 
develop their ballistic missiles and nuclear weapons 
unconstrained. So we should, I would think, recognize that the 
North Korea situation, unlike fine wine, does not get better 
with the passage of time.
    The plutonium production, highly enriched uranium 
production has been variously estimated as moving the North 
Koreans from its current position of maybe less than 10 nuclear 
weapons to tens of nuclear weapons within 5 years or so, with 
ballistic missiles that will, as my colleagues have noted, 
reach at least the western coast of the United States.
    In the meantime, the North can be counted upon 
intermittently to do provocative things, whether they be along 
the DMZ, at sea, or the islands off the coast of the peninsula. 
And I think we need to remember that any of these incidents in 
the future could escalate into a general war to conventional 
war conflict on the peninsula. We should not count, in other 
words, on restraint on the part of Seoul, the Republic of 
Korea. That will not always be the case.
    Less dramatically this situation produces an outcome in 
which others in the region may plausibly respond. Particularly 
when the North Koreans test ballistic missiles or nuclear 
weapons, they energize debates in Seoul and Tokyo over the 
adequacy of the American extended deterrent and the coming 
vulnerability of the continental United States to a North 
Korean nuclear strike will only exacerbate those concerns.
    But for now, at least for me, the most dangerous North 
Korean activity is the transfer of ballistic missiles and 
particularly nuclear material. The Pakistani Gari missile is 
really a Nodong knockoff. The Iranian Shah Hab III is really a 
Nodong IRBM knockoff. And as my colleague noted, the most 
worrisome transfer of all the transfer of a plutonium 
production reactor to Syria by the North Koreans, a plutonium 
production reactor which would be operating now under this 
circumstance were it not for the Israeli version of a 
nonproliferation policy and the flattening of that reactor. So 
patience alone in this case is not a virtue, and it certainly 
is not a strategic response.
    I also want to give gratuitous advice about what we should 
do. Nine quick points.
    First, obviously, sustain the deterrent posture with 
exercises, but I would add without unnecessary provocation. And 
this may be taking due care with respect to our naval presence 
or lights of our B-52s.
    Second, do, of course, maintain the sanctions regime, maybe 
even reinforce the sanctions regime, but do not delude yourself 
into thinking that is itself a policy. That will not stop those 
programs. And given the existence of China to mitigate those 
sanctions, it probably will not cause the North Koreans to come 
to the table on bended knee.
    Third, do push Beijing to be more accurate and use its 
influence in Pyongyang, but do not subcontract this issue, the 
most important strategic issue right now in the Asia-Pacific 
region, to our principal competitor in the Asia-Pacific region. 
Our allies are looking for us to take leadership here and we 
should do that.
    Fourth, when, or if, we pursue negotiations--and I hope it 
is ``when''--we should not make the goals of negotiations 
necessary preconditions for the negotiations. It is true that 
we do not want to engage with the North Koreans in any serious 
series of negotiations without having the North Koreans cease 
and desist the production of their nuclear material. So you do 
not want a situation in which we are negotiating and they are 
building. But beyond that, preconditions I think are not called 
for.
    Fifth, the modality is not critical. The six-party talks 
may be dead or they may be alive. What is important is that the 
United States and the North Koreans engage and that we keep our 
allies particularly in Tokyo and Seoul well informed.
    Sixth, nuclear weapons issues cannot any longer be 
separated from general political issues and certainly not from 
human rights issues. We did that with the Agreed Framework. 
That was then and this is now, and human rights must be part of 
an engagement.
    Seventh, the eventual outcome of formal talks with the 
North Koreans must--must--envision a nonnuclear North Korea or 
else we will be, with our negotiations, legitimizing the 
nuclear weapons program in North Korea.
    Eighth and perhaps most important of all, we should find an 
opportunity to draw a bright but genuine redline on the 
transfer of sensitive nuclear equipment or material or 
technology to national actors or nonnational actors.
    And ninth, I think we should quietly prepare with our 
allies at least in Seoul and our friends in Beijing--sometimes 
friends in Beijing--prepare for a situation of a North Korean 
regime collapse, whether it be what has been called a hard 
landing or a soft landing.
    In conclusion, if we are clear about what we are doing and 
why we are doing it, we may not get those negotiations that we 
should strive for, but we can protect and project strength, 
principled determination to honor our alliances and not seem 
passive in the face of a genuine threat.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Gallucci follows:]

                Prepared Statement of Robert L. Gallucci

    It is hard not to feel a sense of drift when thinking about U.S. 
policy toward North Korea over the last decade or so. The current 
policy, at one point termed ``strategic patience,'' by the Obama 
administration, has apparently been thought good enough, perhaps 
because of the other issues on the foreign policy agenda, and perhaps 
also because successive administrations have tried, with China and our 
allies, Japan and South Korea, to engage the North on numerous 
occasions to no avail.
    From the American perspective, these overtures have failed because 
the North has not been serious about engagement. We perceive the DPRK 
as preferring instead to blame the United States and the Republic of 
Korea for their hostility, and embrace its imposed version of splendid 
isolation, while pursuing its nuclear weapons and ballistic missile 
programs and depending upon Beijing to do what is necessary to insure 
that their regime does not suffer economic or political collapse.
    Threats may be characterized as the product of intentions and 
capabilities. Taking the second first, it is the North's nuclear 
weapons and ballistic missile programs, rather than its army, navy, air 
force, and special operations forces, that demand the most attention. 
For whatever reason, the North Koreans decided to forgo the 
accumulation of plutonium and nuclear weapons for almost a decade after 
the 1994 Agreed Framework, but when that deal collapsed, they moved 
promptly to again accumulate plutonium and begin to enrich uranium to 
support nuclear weapons development. By the end of this decade, by any 
estimate, North Korea will have tens of nuclear weapons, some mated to 
ballistic missiles for delivery to targets in the region and 
intercontinentally. This will be a new situation that plausibly will 
impact the North's intentions, which have never been particularly easy 
to read in the past.
    One of the few things that observers of North Korea seem to agree 
upon is that the regime's first goal is its own survival. This means 
that the government's actions may predictably bring enormous hardship 
to its own people, sanctions may be imposed that bring most harm to the 
most vulnerable--the young and the old--and the regime will still not 
fear pressure to change course. The DPRK enjoys the peculiar stability 
of a totalitarian state. But no one can be certain about whether the 
coming acquisition of a true nuclear weapons capability--vice the 
possession of only a few ``devices''--will make the North more likely 
to take risks, or more risk averse. At the same time, we can be fairly 
certain that the regime's policies will continue to be driven by the 
strategic objective of eventual reunification of the Korean people 
under its authority, and include instrumental goals of undercutting the 
U.S.-ROK and U.S.-Japan alliances, while preserving its relationship 
with Beijing.
    Our experience with North Korea over the last couple of decades 
reveals an approach to achieving these goals which poses risks for the 
U.S. and its allies. The intermittent provocations to the South along 
the DMZ, on coastal islands and at sea could escalate into hostilities 
and full-scale conventional war. Intermittent missile and nuclear 
weapons tests remind the Japanese and the South Korean people that the 
North is developing weapons that their governments have forgone, making 
them dependent on America's ``extended'' deterrent. And reviewing that 
dependence will always be an option in Tokyo and Seoul.
    Most directly threatening to the U.S. will be the emerging reality 
that America's west coast cities will be targetable by North Korean 
nuclear armed ballistic missiles. Deterrence, and some defense, will 
mitigate that new reality, but the essential psychological nature of a 
deterrent begs the question of effectiveness when dealing with what 
some suspect may be a psychopathic leader.
    Perhaps the most dangerous activity that the North has pursued over 
the last couple of decades has been the transfer of sensitive nuclear 
technology and ballistic missiles to other countries. Pakistan's Gari 
intermediate range ballistic missile is based on the North Korean No 
Dung missile, as is the Iranian Shah Hab III. And late in the Bush 
administration, the Israelis alerted Washington to the North Korean 
construction of a plutonium production reactor in Syria--which Israel 
went on to flatten. The U.S.'s very reasonable concern about the 
possibility of a 9/11 nuclear attack is only heightened by this North 
Korean willingness to transfer nuclear capability to unstable 
governments willing to pay in hard currency.
    So while there are very good reasons not to be passive in designing 
policy and strategy to deal with North Korea, the question remains of 
what might work to reduce this threat. Nine points follow which aim to 
define a policy and create a strategy to mange and eventually reduce 
the threat.
    First, continued, visible security consultations and exercises with 
friends and allies in the region, Japan and the ROK most importantly, 
will serve to sustain deterrence of the North while reassuring allies 
of the U.S. commitment to their security. This should be accomplished 
without undertaking unnecessary military or naval activity sure to 
provoke a North Korean response.
    Second, we should continue to maintain a sanctions regime aimed at 
isolating and weakening North Korea, but not delude ourselves into 
thinking that sanctions alone will bring about the changes we seek in 
the North's behavior--not so long as China continues to moderate the 
impact of sanctions.
    Third, we should not resist the urge to remind Beijing of its 
responsibility to use its influence with its clients in Pyongyang to 
avoid adventures and enter negotiations when the opportunity arises. 
But we should resist the temptation to subcontract the most urgent 
security issue in Northeast Asia to China, America's great power 
competitor in the Asia-Pacific region.
    Fourth, we should avoid making the goals of any negotiations with 
the DPRK preconditions for entering those negotiations. At the same 
time, any U.S. administration must be wary of entering protracted 
negotiations with North Korea where they may visibly continue to 
advance their nuclear or ballistic capability while negotiations are 
underway. That would include test detonations or launches, or adding to 
fissile material accumulations at known facilities. In other words, 
there should be no advantage to the North of stalling, of building 
while talking.
    Fifth, we should not hold preconceived notions of the modality for 
negotiations. Six party talks may be dead--or not--but the essential 
participants will be the U.S. and North Korea, whatever the formal 
structure may be. The critical elements will be a bilateral engagement 
with close consultations between the U.S. and Japan, the ROK and China.
    Sixth, the days of isolating nuclear negotiations from human rights 
issues and a broader political settlement are over. We should expect 
such a settlement to eventually include a peace treaty to formally end 
a 60-year state of war.
    Seventh, notwithstanding point number four, above, we should insist 
that the outcome of negotiations include the eventual reentry of the 
North into the Non-Proliferation Treaty regime--lest our negotiations 
legitimize their nuclear weapons program. It should be clear that would 
anticipate acceptance of a safeguards regime that provides sufficient 
transparency to confirm North Korea's status as a nonnuclear weapons 
state, and without any stockpile of fissile material or production 
capability to create one.
    Eight, we should find an opportunity to unambiguously warn the 
North Koreans at the highest level that the transfer of sensitive 
nuclear technology to another state or nonnational actor cannot and 
will not be tolerated by the United States: drawing a genuine redline.
    Ninth, we should take prudent steps with our allies to prepare for 
the realization of our ultimate goal of a unified Korea, whether 
through the slow transformation of the North Korean state or its sudden 
collapse.
    It is possible, of course, that negotiations on the terms 
envisioned here cannot be launched, and we will be left with one or 
another version of containment. This would not be ideal, but any sense 
of policy adrift should be banished by clarity about what national and 
international security requires in light of the challenges presented by 
North Korea to the United States and its allies.

    Senator Gardner. Thank you again. Thank you to all three of 
you for your time and testimony today.
    And we will begin our question time this afternoon.
    You have said it in your statements. I believe all three of 
you have said parts and pieces of this. Ambassador Gallucci, 
you just laid nine points out in terms of what a new policy or 
additional policies would look like. But to Dr. Cha, to Mr. 
Lefkowitz--and of course, Ambassador Gallucci if you would like 
to address this as well--the policy of strategic patience, as 
it is today--has it been effective in deterring North Korea? 
And what should that policy that replaces it, if it has not 
been, look like?
    Dr. Cha. Well, Mr. Chairman, I do not think the--well, I 
should say I think United States policy has been effective at 
deterring North Korea from a second invasion. So the creation 
of the U.S. ROK alliance in 1953--the prime purpose of it was 
to deter a second North Korean invasion. And in that regard, 
the alliance and the policy overall has been successful.
    This concept of strategic patience, I do not think, has 
been successful at stopping their nuclear program. It may be 
marginally slowing it down. We really do not know. But based on 
their statements and based on what we have seen in the 
demonstrations that they have done so far, they are making 
progress.
    So, yes, I do believe United States policy has deterred 
North Korea from conducting sort of major outright aggression, 
but it has not been successful at preventing the growth of this 
program, and it has not been successful at deterring missile 
tests or nuclear tests or cyber activity for that matter.
    What should be the policy going forward? I mean, this is 
the question I think that we all struggle with. I agree 
entirely with my colleagues that whatever that policy is, the 
sanctions part of it, the so-called sticks, are very important 
not just to apply costs to North Korea for not coming to the 
negotiating table but those are things that should continue to 
be applied as a part of our denuclearization policy overall and 
our nonproliferation policy overall.
    The concept of constructive engagement that Mr. Lefkowitz 
mentioned, this idea of being tough but at the same time being 
open to a broader discussion of the future of the Korean 
Peninsula and Northeast Asia, I think is an interesting idea. 
You know, in many cases some have argued that while our focus 
is the nuclear problem, we need to widen the aperture a little 
bit to take into account economic insecurity, human rights, and 
other sorts of issues. And perhaps it is a time to think of or 
do something like that. But it would require a real commitment 
on the part of any administration, whether it is the current 
administration or the next administration, to really want to 
see this through to the end.
    The problem, in my opinion, with regard to North Korea 
policy in general has been for every administration, it is one 
of these issues where if there is a crisis, the initial 
reaction is to dampen down the crisis enough to put it on a 
shelf and then move on to the next issue because there always 
are more important issues, whether it is in the Middle East or 
whether it is the economy or other sorts of things. And this 
has worked to North Korea's strategic advantage because they 
have managed to continue to develop their programs over all of 
these years.
    I am reminded very much of the cyber issue because right 
now, North Korea's tech base on cyber is really not that 
strong, and we see them doing some small things. But they are 
clearly moving in the direction trying to integrate it into an 
overall military strategy. Initially we might think that is not 
a threat right now, but in the late 1980s/early 1990s when 
North Korea was experimenting with a small 5-megawatt reactor, 
we did not think that was going to be a major threat, and look 
at what it has become today.
    So certainly a more proactive policy than strategic 
patience is necessary, one that continues to apply or even 
heightens sanctions on the regime, but at the same time, 
remains open to something that widens the aperture while 
keeping nuclear weapons as the key objective but addressing 
things like economic insecurity and human rights.
    Senator Gardner. Mr. Lefkowitz.
    Mr. Lefkowitz. Thank you, Mr. Chairman.
    I agree very much with what Dr. Cha has said.
    I think when you think about strategic patience, it kind of 
reminds me of a prevent defense in football. And the one thing 
you know whenever your team goes to a prevent defense is the 
other team is going to move the ball all the way down the 
field. Now, maybe they will not get into the end zone, but they 
are in the red zone, and who knows what will happen if we are 
patient for too much longer.
    But, again, I think it is clear that regime change is not a 
viable option for a whole host of reasons now. And so I think a 
full engagement, a full court press, dealing with the nuclear 
issue, dealing with economic issues, both with carrots and 
sticks--we saw how much effect on North Korea $25 million in 
real sanctions exacted from them during the Banco Delta Asia 
situation a decade ago. That really resonated. And using 
economic sanctions with carrots, combining them with a human 
rights approach where we rally pushed for family unification 
visits, supporting independent civilian broadcasts, cultural 
exchanges, I think a comprehensive policy is an appropriate 
policy. Human rights is not an end, in and of itself, of United 
States policy in a foreign country, to be sure, but it can 
certainly be part of a coherent, multifaceted strategic 
approach to a country like North Korea.
    And with respect to China, I certainly agree with 
Ambassador Gallucci. We do not want to subcontract our North 
Korea policy to China. But we also have to be honest enough to 
recognize that China is the biggest player in that region and 
has the most direct influence over North Korea. And China's 
objectives and aims are not necessarily what ours are in that 
region, which means if we are putting together a North Korea 
policy, it has to be part and parcel of our overall China 
policy.
    Senator Gardner. Ambassador.
    Ambassador Gallucci. Thank you, Mr. Chairman.
    Briefly, I think you find the three of us sort of in 
violent agreement to your, generally speaking, approach.
    I think Dr. Cha did a service by disaggregating the 
deterrence issue. Yes, I do not think any of us are worried 
that the North Koreans believe they would get away with an 
invasion of the South without massive consequences. But 
clearly, we have not found the formula that deters the North 
Koreans from expanding their weapons programs, their ballistic 
missile program and particularly their nuclear weapons program. 
So it is not working in that sense, or to be a little clearer, 
it has failed. It has failed that test. We have not stopped 
them.
    Moreover--and I know I emphasized this before, but I want 
to say again--we failed to deter the North Koreans from 
transferring a plutonium production reactor to Syria. We cannot 
afford that. If they decide they want hard currency so much and 
they have got enough fissile material with a highly enriched 
uranium program, they ought to supplement their plutonium 
program, and they become a source of that material for another 
country or nonnational group, no one will think we have done 
very well at protecting the national security of the United 
States.
    So I think fundamental deterrence, yes, but a policy that 
has really managed to contain this threat, no, we have not 
succeeded at that.
    Implicit in the recommendations that I have at least put 
forward is the idea that at some point engaging the North is 
the right thing to do. I do not have a particular view on a new 
set of sanctions except I would hate for us to fall in love 
with a sanctions regime. That is not an end in itself. It is 
only good if it produces an outcome, and I do not believe it 
will produce the outcome we are saying we do not yet have. It 
might play a role in getting them to the table or it might 
alienate them so they do not go to the table. But destroying 
their programs it will not do, and it will not do it certainly 
because China is there to mitigate the impact of those 
sanctions. So we ought to put some perspective on that.
    Thank you.
    Senator Gardner. Senator Cardin.
    Senator Cardin. Once again, thank you all for your 
testimony. As you know, we have just finished--not finished. We 
have been engaged in a long review of the Iran nuclear 
policies, and during this review, we have asked frequently what 
is Iran's intentions. Why do they want to become a nuclear 
weapons state? We would like to know that answer to see how we 
can counter that with an effective strategy.
    So I am trying to understand what North Korea's ultimate 
objective is in wanting to become a nuclear weapons state. One 
could very well argue that it is regime survival, that if they 
have the capacity of a nuclear weapon, it is unlikely that 
other powers would want to use military against them because of 
the fear of nuclear retaliation.
    If that is the case, if it is regime survival, one could 
also argue then advancements on human rights, particularly 
freedom of expression, knowing this government, is going to be 
extremely difficult because I think they look at that as a 
threat to their regime because of the nature of their 
leadership.
    Some of you mentioned the fact that one of our objectives 
is to prevent the transfer of this technology, which might be 
an economic incentive for North Korea to get some cash from 
using its nuclear capacity. If that is the issue, then there 
are ways that we can try to counter that.
    Or maybe they are looking for an aggressive position on the 
continent.
    So could you just share with me what you believe North 
Korea is trying to accomplish by perfecting a nuclear weapon?
    Dr. Cha. Thank you, Mr. Senator.
    So I think the three--I do not disagree with any of those 
three theories that you put forward with regard to why they 
might be interested in nuclear weapons. But let me offer a 
couple of others.
    I think the whole desire for nuclear weapons comes down not 
necessarily to survival of the state, but to the nature of the 
leadership. You know, this sort of cult of personality 
leadership will forever feel insecure. They always feel 
insecure. So even if they had a peace treaty with the United 
States, they would still feel insecure. Even if there were no 
Western forces and South Korean forces arrayed south of the 
DMZ, they would still feel insecure. So I think a lot of it 
comes down to the nature of the leadership. Leaderships like 
this that suppress the rights of their people, that seek 
complete and total control do so out of sort inherent 
insecurity that is based in the nature of the leadership. So I 
think that is one of the sources.
    The other driver is the constant desire to try to 
legitimize this form of government, and seeking the ultimate 
weapon as a symbol of state strength helps to legitimize this 
leadership. So I think that is another reason that does not 
have necessarily to do with economics or with broader state 
survival.
    Senator Cardin. Both of those objectives--I do not disagree 
with you. It is hard for me to understand how they think 
because of the nature of their leadership. If that is true, 
then it is going to be very hard to negotiate away from those 
two issues. It is sort of their DNA more so than it is 
something that they are willing to trade for concessions as 
they see it.
    I want to get to the other two witnesses, but let me throw 
into this equation and then maybe I will ask Mr. Lefkowitz 
first. Are we past the point of no return of stopping North 
Korea from having a nuclear weapon capacity?
    Mr. Lefkowitz. I think we are probably, in my view, past 
the point of no return in terms of preventing them from being a 
nuclear power unless they overplay their hand and the regime 
falls. And if it falls hard, it is hard to know what the 
aftermath looks like and who is really in control of those 
nukes and the territory.
    I think that they have not yet successfully tested proper 
delivery systems for their missiles. I think there is a long 
way for them still to go in their efforts, and I think they 
are, by all accounts, intent on achieving really fully 
operational nuclear capabilities. But I do not think that the 
United States has any intention, nor do I think it would 
necessarily be appropriate to go in with force to try to undo 
what has been done. So we really are dealing with a combination 
of containment and deterrence, and the problem is it is a game 
where patience is not necessarily a virtue.
    And I agree with Dr. Cha that when we have a regime that is 
motivated not genuinely by defensive principles and not 
genuinely by a desire to develop nuclear weapons as the United 
States originally did to actually combat autocratic regimes, 
but really as part of cult of personality for national pride 
and to really potentially have the ability to proliferate to 
raise hard currency. I do not think that the status quo, and a 
status quo which we tolerate through strategic patience, is 
really a viable alternative.
    Senator Cardin. Ambassador Gallucci, I will let you 
respond, but let me throw one more question in and you can 
respond to either one of the two.
    You were talking about direct negotiations or discussions 
between the United States and North Korea. At least, that was 
one of the things.
    The Iran nuclear talks, the P5+1, was an interesting 
arrangement. One could argue whether it was successful or not. 
We are not going to get involved in that today, please. That 
question is not on the table. But it took the world powers and 
did not take the regional powers, and that is how those 
discussions took place with Iran.
    The six-party talks for North Korea involves the major 
players in that region, certainly Korea and Japan, but also 
China. It seems to me it would be challenging for direct talks 
between the United States and North Korea, particularly as it 
relates to China, but I would also expect there would be some 
concerns with the Republic of Korea and Japan on those types of 
dynamics, along with other countries.
    So are you looking at the Iranian discussions and is that 
why you are suggesting just two-party talks? Or maybe you are 
not suggesting that.
    Ambassador Gallucci. Thank you, Senator.
    I see three questions there that I want to respond to. And 
we may have some violent disagreement here. Let me take the 
first one.
    Senator Cardin. Do not make it violent. Disagreement is 
fine. [Laughter.]
    Ambassador Gallucci. The question about whether, as I 
understood it, the North Korean nuclear weapons posture right 
now is a fait accompli. We are done. It is a nuclear weapons 
state. For me, the answer to that is absolutely not, and it had 
better be absolutely not because the North Koreans want it to 
be absolutely so. They have changed their constitution to make 
it absolutely so. And it behooves us to recognize that states 
have built nuclear weapons--South Africa--and then dismantled 
them and subjected the fissile material to IAEA safeguards. 
Three states were born nuclear weapon states and gave up their 
weapons, former states of the Soviet Union. This is not like, 
as someone said, the loss of virginity. This is reversible and 
it ought to be--it must be, I would argue, a tenet of the 
negotiation that the eventual outcome would be for the North 
Korean state in any serious negotiation to become a nonnuclear 
weapon state.
    Now, we all know the challenges of verification of 
monitoring, et cetera, and the difficulty of making sure there 
are not four objects somewhere in that country. We get that. 
But there is an issue here that is beyond legal, and it will be 
important to the South Koreans and it will be important to the 
Japanese if we engage with the North Koreans, that that is the 
goal we are going after because that is their status enshrined 
in the Nuclear Nonproliferation Treaty, and the North Koreans, 
as a result of what they have done should not come out ahead. 
That is on the first point.
    A second point was about what, in terms of motivation, 
drives North Koreans. Just about 20 years ago, 21, 22 years 
ago, I led negotiations that began in 1993 in the spring. It 
did not end until the fall of 1994 with the North Koreans. And 
we had a lot of time to talk about why the North Koreans had a 
nuclear weapons program. I do not mean by saying we had a lot 
of time, that we came to the right answer. I mean we talked 
about it a lot.
    And one thing I became convinced of--and I like Victor 
found your dichotomy or classification to be quite useful. But 
one thing we were quite sure of is that the North Koreans, for 
whatever else they had in mind with these nuclear weapons, were 
worried about the United States. And I had one-on-one 
conversations with their principal negotiator in which he told 
me they watched the United States action in Desert Storm, one, 
and they watched us do what we did. Later, they got to see what 
we did in Iraq, two, and they could see that we were capable of 
accomplishing regime change.
    What they were looking for was something as a deterrent, 
yes, but if they were going to give it up in negotiations, a 
relationship with the United States of America which would 
allow them to believe that they could count on the United 
States not conducting actions to achieve regime change, a 
political settlement that was persuasive.
    Were they, very soon after they signed that deal in 1994, 
cheating on that deal, the Agreed Framework? I do not know how 
soon, but certainly they did after that. Were they hedging or 
did they intend necessarily to have a weapons program? I do not 
know the answers to those questions.
    But I am persuaded that had they gotten the political 
arrangement and they were satisfied that they did not need to 
worry about the United States of America that a security need 
would have been met. I am not saying that that would have meant 
no other nuclear weapons program. I just do not know. But I 
think that is a driver for the North Koreans.
    Your last point, Senator?
    Senator Cardin. It was the six-party talks versus two-party 
talks.
    Ambassador Gallucci. Yes. I had two-party talks, and after 
every negotiation with the North Koreans in the evening, I 
first met with the delegation from the Republic of Korea and 
then the next day I would go and meet with the Japanese and I 
would meet with the Chinese. But the South Koreans, as our 
treaty ally and closest in terms of the threat from North 
Korea, we met with every single day that we negotiated. We also 
met with the North Koreans. And we kept the Japanese as a 
treaty ally fully informed, and pretty fairly often we were 
also talking to the Chinese. These negotiations were mostly 
conducted in Geneva.
    So I think that is not a bad model. I do not think the 
modality is terribly important because when you have six-party 
talks, nothing happens with six parties. It happens when two 
parties get together, and the important thing is that those 
discussions do not cause a break of any kind in our alliance 
either with the Japanese or the Republic of Korea.
    Senator Cardin. I appreciate that. I found your response on 
all three points very helpful. President Obama might disagree 
with you. A P5+1 equals six.
    I have some other questions, but I will wait till the next 
round.
    Senator Gardner. Thank you again.
    Dr. Cha, you and I have had this discussion before, this 
last conversation talking about six-party talks, two-party 
talks, right now no party talks. And so does it behoove the 
trilateral alliance of the United States, Japan, South Korea, 
others that may be a part of eventually six-party talks--does 
it behoove us to have at least five-party talks where we are 
all getting together finally and talking about North Korea? 
Right now, we do not seem to be even doing that.
    Dr. Cha. Yes. I mean, I think that is a very good point.
    So when Bob did bilateral talks, we did six-party talks. He 
did his in Geneva. We did ours in Beijing.
    The whole concept of the six-party talks was to bring all 
the stakeholders to the table, all who had an interest in the 
resolution of the North Korean nuclear problem. And if we could 
not get agreement among the six, then we should get agreement 
among as many of the others as possible.
    And right now I think we are in the situation where the 
United States, the South Koreans, the Japanese, the Russians, 
and the Chinese all want the North Koreans to come back to the 
table and engage in a genuine negotiation. I think it is fair 
to say that all five parties have agreement on this.
    And so if the North Koreans continue on a path where they 
just provoke or they test and they do things, it seems to me 
that your suggestion makes perfect sense. The five parties 
should get together, if anything, to compare notes, to figure 
out a way forward. Now, I certainly know that the 
administration sends their envoys out and they go and do 
bilateral meetings with each of the members of the six-party 
talks, but convening the five in Beijing really to chart a path 
forward, figure out what the next steps are, determine how to 
ramp up sanctions, if all parties are in agreement on ramping 
up sanctions, I think makes perfect sense.
    The other thing that I would say is again on this question 
of whether we can get them to give up their programs and 
whether--the North Korean case is different from the three who 
were born with weapons and the ones who created them and gave 
them up. To me, the main question with regard to North Korea is 
their strategy at this point is to establish themselves as a 
recognized nuclear weapons state, and at that point they may be 
interested in engaging with the United States and others in 
what they would call arms control negotiations like the United 
States did with the Soviet Union. That is the position I think 
that they are seeking. And I think they are waiting out both 
the current administration here and the administration in South 
Korea and ramping up their capabilities to try to establish 
themselves for the next administration that comes in. And so 
for any policymaker, that is going to be the question. Can you 
pull them off that path of seeking to become a recognized 
nuclear weapons state who wants to engage in arms control 
negotiations?
    Senator Gardner. In my conversations last month in both 
Japan and South Korea, talking to the foreign ministry in Japan 
and to President Park in Seoul, talking about the importance of 
a strong trilateral relationship, what we can do, what measures 
we can do to make sure that the United States, South Korea, and 
Japan are building a strong alliance in terms of dealing with 
North Korea and also addressing China and how China can use its 
economic leverage against North Korea.
    So I guess I have two questions for all of you. The first 
question would be, what can we be doing to strengthen our 
trilateral alliance between Japan, South Korea, and the United 
States?
    And secondly, I think, Ambassador Gallucci, you said it in 
your statement, not so long as China continues to moderate the 
impact of sanctions in relation to the effectiveness of the 
willingness of China to use its leverage against North Korea, 
as they are moderating our sanctions right now.
    So how can we most effectively use that trilateral 
relationship, that bolstered, strengthened trilateral 
relationship to encourage China not to moderate the impact of 
sanctions but, indeed, work directly with North Korea using its 
economic leverage?
    So whoever wants to take that one, feel free. And then I 
would love to hear from all three of you.
    Ambassador Gallucci. There have been some bad ideas on how 
to do that. An example of a bad idea would be for either Tokyo 
or Seoul to say that the North Korean program, as it is 
advancing, is going to cause us to rethink our nonnuclear 
status. That is a bad idea that I will not now attribute but it 
was by senior policymaker from another administration. I do not 
believe that is the way we ought to go.
    I think that Beijing has a very sophisticated approach to 
regional politics. I think that an approach in Beijing that is 
clearly one that is endorsed by, if not joined with, the South 
Koreans and the Japanese and Beijing to say that we need a new 
initiative, we need a new push from China to use its influence, 
I am not opposed to that. That is not the subcontracting 
problem. Long ago in another universe 20 years ago, I made 
several trips to Beijing in order to persuade them to be more 
active in Pyongyang. They know that their relationship is rocky 
and more rocky at different times, but they still are the one 
country that has the most influence as a result of what it does 
for Pyongyang.
    So I think the idea that you have had of the trilateral 
relationship between our treaty allies and ourselves, using 
that as the basis, as a platform for approaching the Chinese to 
get them to move on the North Koreans and to have a serious 
plan to follow that with to engage the North Koreans--we do not 
want to push the Chinese on this and to be too busy somewhere 
else, which I believe we have been on occasion, not to engage 
the North Koreans. When we are ready, I think perhaps the first 
step after our allies create that trilateral relationship as a 
springboard to leverage in Beijing.
    Dr. Cha. So in terms of the question of how we can 
consolidate trilateral United States, Japan, ROK trilateral--I 
mean, I agree with that entirely, Senator. I think that is one 
of the most important things that we can do now to both 
solidify the United States position in the region and to deter 
North Korea.
    Very clearly, one very important aspect of this is 
improving the bilateral relationship between Seoul and Tokyo. 
It has been quite tattered recently, but it looks like it is on 
the mend. And so I think that is a positive thing. And so I 
think your trips to the region were important in that regard to 
help impress upon both sides the need to improve their 
bilateral relationship.
    At the very highest levels, there has already been one 
trilateral summit between the United States, Japan, and Korea, 
President Obama, Prime Minister Abe, and President Park. And we 
have a number of opportunities coming up this fall, a number of 
multilateral meetings, G20 and others, where you could affect 
more of those trilateral meetings. That sends an important 
political signal to domestic audiences about the importance 
that the leaders place on trilateralism, a message that is not 
lost in Beijing, I can tell you for certain.
    More specifically, there needs to be a lot more information 
and intelligence sharing between the three countries because 
that is deficient. Missile defense cooperation is certainly 
another area where there are opportunities, given the very 
proximate threat from North Korea. And also just general phase 
zero trilateral cooperation on piracy, disaster relief, and 
these other sorts of things helps to improve readiness among 
the three sides.
    Those signs of trilateral coordination and consolidation do 
impose costs on China. If the Chinese understand that part of 
the reason all this activity is happening is because of their 
support of North Korea, that imposes costs on China. And I 
think one hopes that it will affect the way they calculate 
their strategic equities on the Korean Peninsula, whether it 
should be with the North or whether it should be with the 
South. So that is certainly one way of doing these things to 
impose costs on China.
    The other is to do these things, but then also be open to 
more strategic discussion with China on the future of the 
Korean Peninsula. The one piece of all the multilateralism in 
Asia is there really has not been a discussion among the United 
States, South Korea, and China about the future of the Korean 
Peninsula. Those are the three actors that will be the most 
affected. But that has been missing. And as long as the regime 
looks as unpredictable and uncertain as it does and with a 
young leader, for which there is not a clear line of succession 
in the North Korean royalty system--the next in line in 
succession is his infant daughter. So there really is not a 
line of succession. And the economic situation is getting worse 
and worse.
    Senator Cardin. That may add some maturity to this. 
[Laughter.]
    Dr. Cha. A point well taken.
    Mr. Lefkowitz. Mr. Chairman, I certainly embrace your view 
that we need to consolidate and strengthen the trilateral 
relationship. These are two countries, Japan and South Korea, 
with whom we have shared values, a lot of influence, strong 
historic relationships, and now is the time actually for the 
United States to step up and show that we are committed to 
working with them on their own regional security issues. It is 
certainly not the time to take a step back and cede any of that 
power and authority and influence to China.
    But recognizing, as we must, that China is the critical 
actor with respect to North Korea--and as Victor just said, we 
have not really had a serious dialogue with China and with 
South Korea about the future of the peninsula, and it is 
important because these regimes, these Stalinist regimes 
eventually crumble. Let us stipulate that we are not going to 
necessarily overthrow the regime, but over time--and it could 
be a short time as what happened in Romania. It could be a 
slightly longer time. But the regime is going to crumble from 
within, and we should certainly be doing what we can to support 
the defector community, to embrace the human rights issues, and 
to help promote some of that type of dissent within that 
society. But to do so, we have to be prepared for the 
aftermath. And fundamentally, a policy that says the answer is 
reunification of the peninsula, which is our stated policy 
objective and South Korea's, may very well be completely 
antithetical to China's objective. And so we really do have to 
engage directly with China and in a trilateral way with China 
and with the ROK on that issue.
    Senator Gardner. Senator Cardin.
    Senator Cardin. Mr. Chairman, thanks again.
    I want to cover one more point. I will try to do it very 
briefly. And that is, each of you have mentioned that we must 
be focused on the human rights advancements if we are going to 
accomplish our objectives on the Korean Peninsula, and I could 
not agree with you more.
    But you have also mentioned that one of the principal 
objectives of North Korea is the preservation of regime, and it 
seems to me and knowing their DNA, they are not going to 
voluntarily agree to allow for a free press and dissent, et 
cetera. So how do we effectively influence human rights in 
North Korea?
    Number two, it is difficult to get the State Department to 
focus on human rights when nuclear weapons are engaged. That 
always seems to be a secondary subject, if it is even a 
secondary subject.
    So how do we get the United States to put a higher priority 
and visibility on human rights? And how do we get the North 
Koreans willing to move and make progress in this area?
    Mr. Lefkowitz. Thank you, Senator.
    When I had the privilege of serving as the special human 
rights envoy to North Korea, I certainly can echo your sense 
that it was hard sometimes to get the State Department to 
engage properly in the issue. I worked for a President who 
cared deeply about the issue. He actually gave all of us in the 
West Wing copies of ``Aquariums of Pyongyang'' to read and then 
talked to use about it and invited the author in for a very 
highly publicized meeting. And he met with other defectors in 
highly publicized meetings. We worked hard to try to help 
defectors, who had somehow been able to escape from North 
Korea, get out, and then when they got out, they came either to 
the United States or to South Korea. We helped with radio 
broadcasts into North Korea.
    I think there is a lot that Congress and the United States 
can do. I think the North Korea Sanctions Enforcement Act is a 
very good start. I think we should make significantly more 
financial resources available for independent civilian 
broadcasts. So there is a lot we can do.
    But it starts by recognizing that human rights issues are 
not completely separate from military and strategic security 
issues. And as I said before, I understand that our principal 
objective is and should be the security issue. Changing North 
Korea and helping North Korea change from within is ultimately 
going to help bring about a safer and more secure peninsula.
    Dr. Cha. The nuclear weapons issue will be the objective of 
any future negotiation with North Korea. That is very clear. 
But the way to get there is to give North Korea what this 
administration or previous administrations have all said, which 
is you need to make a strategic decision, a strategic choice.
    Their position on human rights is part of that strategic 
choice. In many ways, any nuclear agreement in the future is 
not credible unless there is other evidence that North Korea 
has made a strategic decision to take a different path. And so 
in that sense, the human rights element is actually very 
important for the credibility, the genuineness of any future 
agreement.
    Short of that, the awareness raising and the pressure that 
it is putting on the regime in terms of human rights could 
translate into better terms and treatments of NGOs and 
humanitarian groups that are going into North Korea. These 
groups go in under the worst conditions in violation of all 
their working norms and principles. And so that could change if 
the North Koreans were to try to address that.
    I would agree with everything that Jay said in terms of 
broadcasting information, but I would also add, as I did in my 
testimony, that there is also an opportunity to help the human 
condition here in the United States with the 170 or so refugees 
that are here now who have gone through an incredible ordeal to 
get here. And they are the living champions of a future North 
Korea.
    Ambassador Gallucci. When we negotiated the Agreed 
Framework, we went to great lengths to insulate the 
negotiations from human rights concerns, and there were human 
rights concerns 21-22 years ago. And we did not put them on the 
table, and that was with malice aforethought. I mean, we wanted 
to deal with one issue, and if we could keep the human rights 
issues away, then that would be down the road somewhere. I 
think that was the right thing to do then. It clearly is no 
longer.
    We have gone through a period now where it is not 
conceivable to me that the North Koreans would enter into a 
negotiation in which only their nuclear weapons program was on 
the table. They want more politically and economically. And I 
am fairly certain, based upon the experience that Victor had in 
other administrations, that the North Koreans want to settle 
the Korean war. They want a treaty of peace, and they want all 
the political stuff that will go with that. And we in that 
context will want to see performance on human rights, and that 
is how I think the nuclear issue, if it is going to be solved, 
will be solved. And that is how realists--I mean that in the 
kind of academic sense--will come to see human rights as 
essential to an agreement with North Korea. So that is half.
    The other half is what you expect out of human rights 
because I think, Senator, you are quite correct. If you expect 
Jeffersonian democracy, you will once again be disappointed, as 
we are repeatedly when we look at what happens in other 
countries and we look at the Arab Spring, et cetera. So we have 
to be realistic about what is plausible. There are lots of 
other models out there of countries we deal with where they do 
not torture their own people, but they are a long way from what 
we would consider to be an adequate democratic system that is 
fully respectful of human rights. So I think if there is some 
movement on that side, it is not entirely implausible that 
there is a place where we can meet in the middle.
    Senator Cardin. I will just add if you look at the TPP 
sections on good governance and human rights, you see that we 
are developing some international standards that are not our 
standards but are minimum standards.
    Senator Gardner. Well, I want to thank the witnesses who 
are here today. I think we can both go back and forth for a 
while longer, but I am glad we finished.
    I know Senator Cardin has been a champion on human rights 
issues around the globe, and to have these conversations, I 
think we do have to include the human rights conditions and the 
acts in North Korea as part of these discussions. I think that 
is critically important. It seems to be one of the things that 
actually is making a difference in terms of their response and 
getting attention.
    So thank you to all of you for appearing today before us 
and providing testimony.
    For the information of members, the record will remain open 
until the close of business this Friday, including for members 
to submit questions for the record. I did not get to ask a 
question on cybersecurity. That will be submitted for the 
record. We ask the witnesses to respond as promptly as 
possible. Your responses will also be made a part of the 
record.
    And thank you for traveling here today. Thank you for your 
participation today. And thanks to the committee.
    This committee is now adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
